ni

(“OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B t A cfs contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 21-109

CALIFORNIA STATE LANDS COMMISSION,
Petitioner,
ve
EUGENE DAVIS, in his capacity as
Liquidating Trustee of the Venoco Liquidating Trust,
and STATE OF CALIFORNIA,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF IN SUPPORT
OF CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2982 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 31st day of August, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

é GENERAL KOTARY State of Kebraske Konto. / & Qh,
RENEE J. GOSS: x ¢ heed taut *
Notary Public s

 

 

ity Commn, Exp, Sapiemibar 6, 2023

Affiant 41369
